               COMMONWEALTH OF PENNSYLVANIA

              EVALUATION OF GRANT OBLIGATIONS,
                 EXPENDITURES AND PAYMENTS

             WORKFORCE INVESTMENT ACT GRANTS
              AND JOB TRAINING PARTNERSHIP ACT
                      TRANSITION FUNDS


             INDEPENDENT ACCOUNTANTS = REPORT
            ON APPLYING AGREED-UPON PROCEDURES

         GRANTS AND TRANSITION FUNDS AWARDED TO
           THE COMMONWEALTH OF PENNSYLVANIA

            JULY 1, 1999 THROUGH DECEMBER 31, 2001




This agreed-upon procedures report was prepared by R. Navarro & Associates, Inc.,
under contract to the U.S. Department of Labor, Office of Inspector General, and,
by acceptance, it becomes a report of the Office of Inspector General.


                       __________________________________________
                       Deputy Inspector General for Audit
                       U.S. Department of Labor




                                                   Report No.: 04-03-004-03-390
                                                   Date Issued: November 4, 2002


                    R. NAVARRO & ASSOCIATES, INC
                                                      TABLE OF CONTENTS



Acronyms ........................................................................................................................................iii

Independent Accountants= Report on Applying Agreed-Upon Procedures .....................................1

Summary of Findings.......................................................................................................................2

Background, Scope and Methodology ............................................................................................3

           Background ..........................................................................................................................3
           Scope and Methodology.......................................................................................................4

Procedures and Findings ..................................................................................................................5

Exhibit I – Financial Status Report, Local Youth Program Activities

Exhibit II – Financial Status Report, Local Adult Program Activities

Exhibit III – Financial Status Report, Local Dislocated Worker Program Activities

Exhibit IV – Commonwealth of Pennsylvania’s Response




                                                                        ii
                                   ACRONYMS


AICPA   American Institute of Certified Public Accountants
CFR     Code of Federal Regulations
DOL     U.S. Department of Labor
ETA     Employment and Training Administration
ICS     Integrated Centralized System
FMS     Financial Management System
FSR     Financial Status Report
FY      Fiscal Year
JTPA    Job Training Partnership Act
NOO     Notice of Obligations
OGCM    Office of Grants and Contract Management
OIG     Office of the Inspector General
PMS     Payment Management System
PY      Program Year
TAG     Financial Management Technical Assistance Guide
WIA     Workforce Investment Act




                                          iii
                                  SUMMARY OF FINDINGS

We identified and summarized the Workforce Investment Act (WIA) funds obligated, expended
and withdrawn as of December 31, 2001 (and in certain instances March 31, 2002), based on
records available at both the Commonwealth of Pennsylvania and Local Boards, and found that
the accounting records supported expenditure amounts reported on quarterly financial reports.
We also found that expenditures were reported on the accrual basis of accounting in accordance
with ETA reporting requirements, however, obligations were not reported in accordance with the
methods described by ETA’s Office of Grants and Contract Management (OGCM). The written
instructions issued by ETA to WIA grantees did not correspond with the obligation reporting
described by OGCM.

The Commonwealth’s Financial Status Reports (FSRs) reflect that $271.1 million of the $286.6
million awarded to the Commonwealth for the WIA program had been obligated as of December
31, 2001. However, this is due to the fact that the Commonwealth reported obligations for Local
Board activities equal to the total funds passed through to the Local Boards, rather than the
actual amounts obligated by the Local Boards. Actual obligations recorded at March 31, 2002,
totaled $258.2 million, leaving $28.4 million in unobligated balances.

Expenditures reported at December 31, 2001, reflect that $168.5 million of the $286.6 million
awarded, had been expended by the Commonwealth and Local Boards, leaving $118.1 million or
41.2 percent unexpended. At this rate of spending, it would take over 1 year to spend the
remaining funds, in which time the Commonwealth would have received additional WIA
allocations.

Commonwealth of Pennsylvania’s Response

The Pennsylvania Department of Labor & Industry, Bureau of Workforce Investment, provided a
written response to our draft report, dated October 11, 2002, which is included in its entirety at
Exhibit IV. Pennsylvania responded that the auditors never conducted an exit conference, that a
substantial portion of unexpended funds were just awarded in July 2001 and October 2001, and
that Local Area obligations are reported using the Department of Labor’s on-line reporting
system in accordance with state and Federal guidelines. Pennsylvania does not believe that
Local Areas have excess cash because there is a 15-day time lag in reporting expend itures.

OIG’s Evaluation of Pennsylvania’s Response

An exit conference was held with the agency’s Comptroller on June 25, 2002. Our report
completely discloses when funds were awarded and expended. For example, 71.3 percent of the
funds awarded in July 2001 and 94.7 percent of funds awarded in October 2001 were not spent
as of December 31, 2001. As discussed in our report, we agree that ETA’s written instructions
for obligation reporting do not correspond with the method described by ETA’s OGCM.

In regards to Pennsylvania’s contention that Local Boards do not have excess cash, no additional
information was provided that would cause us to change our conclusion. We continue to believe
that Pennsylvania’s 3 weeks (15 work days) supply of cash is not in compliance with the
“immediate cash requirements” criteria. With the availability of electronic funds requests and
transfers, a much smaller cash balance would be adequate.
                                                2
                      BACKGROUND, SCOPE AND METHODOLOGY

Background

WIA was enacted in 1998. The WIA program was designed to reform prior Federal job training
programs and create a new comprehensive workforce investment system. The reformed system
intends to provide customer- focused services, assist Americans in accessing the tools needed to
manage the ir careers through information and services, and assist U.S. companies in finding
skilled workers. The Act superseded the Job Training Partnership Act and amended the Wagner-
Peyser Act.

Initial grants for the WIA program were awarded by DOL ETA beginning in Program Year (PY)
2000. However, unexpended funds from the PY 1998 and PY 1999 JTPA state grants were
authorized for transition into the WIA program. The Commonwealth of Pennsylvania was an
early implementation state for the WIA program, and started the program in PY 1999 using
JTPA transition funding.

Generally, the states are required to pass through approximately 85 percent of the awards
received from DOL to Local Boards (subrecipients). States have the original program year plus
two additional program years to spend the grant funds. However, funds allocated by a state to a
Local Board for any program year are available for expenditure only during that program year
and the succeeding program year. Funds that are not expended by a Local Board in this 2- year
period must be returned to the state.

States are required to report WIA activities on quarterly FSRs. Accrued expenditures and
obligations are key items reported on the FSRs. Accrued expenditures are reported when a
liability has been created through delivery of goods or services, regardless of when cash payment
is made. For example, salaries earned by employees, but not yet paid, should be recorded as
accrued expenditures. Obligations are reported when certain events occur which will require
payment by the States or Local Boards in the same or a future period. Obligations are defined in
the WIA regulation as follows:

       . . . . the amounts of orders placed, contracts and subgrants awarded, goods and
       services received, and similar transactions during a funding period that will
       require payment by the recipient or subrecipient during the same or a future
       period [20 CFR 660.300].

According to ETA’s OGCM, states have been instructed to report obligations incurred at the
state level (Statewide Activities and Rapid Response) at the time obligations are incurred by the
state. However, for Local Board activities (Local Administration, Youth, Adult and Dislocated
Workers), states have been instructed to report obligations at the time they are incurred by the
Local Boards. This requires the states to collect and consolidate obligation information for all of
the Local Boards located within the state.




                                                 3
WIA grantees obtain grant funds through the U.S. Department of Health and Human Services’
(HHS), Payment Management System (PMS). Once ETA awards a grant, the recipient can
obtain online access to the PMS system and draw down grant funds, on a daily basis.

Scope and Methodology

Our agreed-upon procedures encompass the WIA funds awarded to the Commonwealth of
Pennsylvania for PY 2000, FY 2001, PY 2001 and FY 2002, as well as PY 1998 and PY1999
JTPA funds transitioned into the WIA program. Procedures were applied to grant activities
reported by the Commonwealth and two Local Boards (South Central Employment Corporation
and City of Philadelphia) from July 1, 1999 through December 31, 2001. In certain instances,
we obtained information subsequently reported by the Commonwealth and Local Boards for the
March 31, 2002 reporting period.

In general, our procedures were designed to summarize the Commonwealth of Pennsylvania’s
WIA financial activity (obligations, payments and expenditures), to determine if the amounts
reported to ETA agree with the supporting accounting records, and to measure the extent of
which the Commonwealth and Local Boards have obligated, expended and drawn down WIA
funds.




                                               4
                               PROCEDURES AND FINDINGS

1.   Identify and summarize the total WIA grant funds awarded by the DOL to the
     Commonwealth as of December 31, 2001.

     The table below sho ws the total WIA funds awarded by the DOL to the Commonwealth
     of Pennsylvania since inception of the WIA program:

                                                                                  Total
               Funding           Beginning of         Expiration of             WIA Funds
               Period           Spending Period      Spending Period             Awarded

             PY 1998            JTPA Transition        June 30, 2001            $    8.5 million
             PY 1999            JTPA Transition        June 30, 2002            $   63.7 million
             PY 2000                July 1, 2000       June 30, 2003            $   55.5 million
             FY 2001             October 1, 2000       June 30, 2003            $   51.2 million
             PY 2001                July 1, 2001       June 30, 2004            $   58.8 million
             FY 2002             October 1, 2001       June 30, 2004            $   48.9 million

             Total Awards                                                       $286.6 million

     WIA funds are awarded on a PY basis, from July 1 to June 30, except for Youth grants
     that were available in April preceding the start of the PY. However, a portion of the PY
     2000 and 2001 funding, denoted as “FY” above, was not available until October 1 of
     each respective PY. As required by WIA, the Commonwealth passed approximately 85
     percent of its grant funds to Local Boards (subrecipients).

2.   From the FSRs, identify and summarize total WIA obligations as of December 31,
     2001 and calculate the amount and percentage of unobligated balances.

     Total obligations reported by Pennsylvania as of December 31, 2001 were as follows:

                    Total                Total             Amount
     Funding       Funds               Obligations       Unobligated             Percent
     Period       Awarded               Per FSR            Per FSR              of Funding
                (in millions)        (in millions)       (in millions)          Unobligated

     PY 1998        $    8.5            $    8.5             $      0                  0%
     PY 1999        $   63.7            $   61.9             $    1.8                2.8%
     PY 2000        $   55.5            $   55.3             $     .2                 .4%
     FY 2001        $   51.2            $   48.4             $    2.8                5.5%
     PY 2001        $   58.8            $   56.9             $    1.9                3.2%
     FY 2002        $   48.9            $   40.1             $    8.8               18.0%

     Total          $ 286.6             $ 271.1              $   15.5                5.4%

     The information reported as of December 31, 2001, reflects that the Commonwealth and
     Local Boards had obligated 94.6 percent of the total WIA funding available, leaving only
                                            5
     5.4 percent unobligated. The FSRs submitted by the Commonwealth for Local Board
     activities indicated that 100 percent of the funds were obligated. This is due to the fact
     that the Commonwealth reported obligations equal to the total funds passed through to
     the Local Boards, rather than the amounts actually obligated by the Local Boards. These
     reporting practices are discussed in further detail at item 10 of this report.

     Since the Local Boards are required to report obligation data to the Commonwealth, we
     were able to compile the total obligations from certain reports generated by the
     Commonwealth’s accounting system. The reports reflected March 2002 rather than
     December 2001 data (due to difficulties generating data for prior periods) and combined
     funding streams by fiscal year, as follows:

     Funding     Total Funds          Reported            Unobligated             Percent
      Period       Awarded           Obligations            Balances            of Funding
                 (in millions)      (in millions)         (in millions)         Unobligated

     PY 1998        $ 8.5              $        8.5          $       0                 0%
     PY 1999        $ 63.7             $       62.9          $      .8               1.3%
     PY 2000/
      FY 2001       $ 106.7            $       99.9          $     6.8               6.4%
     PY 2001/
      FY 2002       $ 107.7            $       86.9          $    20.8              19.3%

     Total          $ 286.6            $ 258.2               $    28.4               9.9%

     The March 31, 2002, data reflects that the Commonwealth and Local Boards had
     obligated 90.1 percent of the total available WIA funding to date, leaving 9.9 percent
     unobligated.

3.   Identify and summarize the WIA grant expenditures reported by the
     Commonwealth as of December 31, 2001, and calculate the amount and percentage
     of unspent funding.

     Total WIA expenditures reported by the Commonwealth through December 31, 2001,
     were as follows:
                          Total
                         Funds            Total         Amount          Percent
        Funding         Awarded      Expenditures       Unspent       of Funding
         Period       (in millions)   (in millions)   (in millions)    Unspent
       PY 1998           $    8.5       $      8.5      $        0          0%
       PY 1999           $ 63.7         $    56.8       $      6.9       10.8%
       PY 2000           $ 55.5         $    46.8       $      8.7       15.8%
       FY 2001           $ 51.2         $    36.9       $    14.3        27.9%
       PY 2001           $ 58.8         $    16.9       $    41.9        71.3%
       FY 2002           $ 48.9         $      2.6      $    46.3        94.7%

         Total          $ 286.6            $     168.5        $   118.1         41.2%

                                                 6
     Of the $286.6 million of WIA funds awarded to Pennsylvania, the Commonwealth spent
     $168.5 million, 58.8 percent of the total funds awarded, leaving a significant portion of
     its funding (41.2 percent) unspent as of December 31, 2001. The PY 2001 and FY 2002
     funding years reflect that only $19.5 million (18 percent) had been spent as of
     December 31, 2001, even though several months had expired since the funds were
     awarded. We subsequently obtained expenditure information reported for the quarter
     ended March 31, 2002, and noted that 30 percent of the total WIA funds remained
     unspent as of that date.

4.   Determine if the expenditure amounts reported to DOL agree to the Commonwealth
     and two Local Board’s accounting records.

     We compared the expenditure amounts reported to the DOL for both Commonwealth and
     Local Board activities to expenditures recorded in the Commonwealth’s grant accounting
     records, and found that the amounts reported reconciled to the Commonwealth’s
     accounting records. We visited two Local Boards, and found that the expenditures
     reported to the Commonwealth reconciled to expenditures recorded in the Local Boards’
     accounting systems.

5.   Calculate the amount and percentage of unspent funding by program component.

     The following provides a summary of unspent funding by program component.

                                                                                  Percent
                                   Funds              Total         Amount          Of
                                  Awarded         Expenditures      Unspent       Funding
      Program Component         (in millions)     (in millions)   (in millions)   Unspent

      Local Board Activities:
      Adults                       $ 76.5            $ 50.3          $   26.2       34.2%
      Youth                        $ 66.3            $ 40.3          $   26.0       39.3%
      Dislocated Worker            $ 52.7            $ 36.9          $   15.8       30.0%
      Local Admin                  $ 21.7            $ 12.9          $    8.8       40.6%
      Total Local Activities       $ 217.2           $ 140.4         $   76.8       35.4%

      State Activities:
      State-Wide Activities        $   42.2           $ 18.7         $   23.5       55.8%
      State Rapid Response         $   27.2           $ 9.4          $   17.8       65.4%
      Total State Activities       $   69.4           $ 28.1         $   41.3       59.5%

      Total Funding                $ 286.6            $ 168.5        $ 118.1        41.2%

     The cost data submitted by the Commonwealth through December 31, 2001, indicate that
     the percentage of unspent funds for Local Board and State activities was 35.4 percent and
     59.5 percent, respectively.


                                              7
6.   Calculate the rate of expenditure for the Commonwealth of Pennsylvania’s WIA
     program as of the quarter ended December 31, 2001.

     From July 1, 1999 through December 31, 2001, the rate of expenditure for the WIA
     program has averaged approximately $1.3 million per week. At that rate, the
     Commonwealth had about 1.8 years of available funding as of December 31, 2001.

     We also obtained the FSRs for March 31, 2002. The cost reports reflect that the
     Commonwealth spent an additional $32.2 million in this quarter, leaving the unspent
     balance of $85.9 million, or 30 percent of the total funds awarded. This cost activity
     indicates a slight acceleration of WIA expenditures for the latest quarter. However, even
     at this rate it would take more than 1 year to spend the existing funds available, during
     which period of time the Commonwealth would have received additional allocations.

7.   Identify potential reasons for the high percentage of unspent funds.

     According to Commonwealth officials, the main reason for the high percentage of
     unspent funds was the slow implementation of WIA. They indicated that additional time
     was required to develop new partnerships and the design of the One-Stop Centers, and
     that as an early implementer of the WIA program, there was little guidance from ETA at
     the time the program began. Management also stated that monthly meetings are now
     held to review the financial activity of the Local Boards and determine if they are
     meeting goals for the amount of obligated funds. The Commonwealth’s Technical
     Assistance Guide (TAG), Chapter 4, “Recapture and Reallotment,” identifies the Local
     Boards responsibilities relating to unobligated funds and states in part:

            Beginning with Program Year 2000 (July 1, 2000), any Fiscal Agent who
            obligates less than 80% of their Adult, Dislocated Worker and Youth
            allocations (by individual funding stream) will be subject to deobligation.
            If, at the end of the first program year within the two year agreement,
            obligations are less than 80%, corrective action will be taken which will
            include deobligation of funds. These deobligated funds will be realloted
            to Fiscal Agents who have obligated at least 80% of their Adult,
            Dislocated Worker and Youth allocations.


8.   Identify and summarize the total WIA payments received by the Commonwealth of
     Pennsylvania as of December 31, 2001, and calculate the resulting available cash.

     The following provides a summary of the funds withdrawn from the HHS/PMS system as
     of December 31, 2001, and the resulting cash balances.




                                             8
                                 Total              Total Cash               Cash
             Funding         Expenditures           Withdrawn             Available
             Period          (in millions)          (in millions)        (in millions)

             PY 1998             $    8.5               $    8.5               $ 0
             PY 1999             $   56.8               $   59.5               $ 2.7
             PY 2000             $   46.8               $   52.2               $ 5.4
             FY 2001             $   36.9               $   35.4               $ (1.5)
             PY 2001             $   16.9               $   15.0               $ (1.9)
             FY 2002             $    2.6               $    2.0               $ (0.6)

             Total               $168.5                 $ 172.6                $ 4.1

9.    Determine if the cash withdrawn by the Commonwealth and Local Boards for the
      WIA program is reasonable based on the actual rate of expenditures, and that the
      resulting cash balance is in compliance with the applicable regulations .

      The $4.1 million available cash identified above represents cash drawn down in excess of
      costs incurred, as of December 31, 2001. Since the Commonwealth averaged
      approximately $5.6 million of grant expenditures per month (from July 1999 through
      December 2001), the available cash of $4.1 million represents approximately 3 weeks (15
      days) of cash needs.

      The cash management regulations applicable to the WIA program require that cash
      advances be limited to the “minimum amounts needed and shall be timed to be in accord
      only with the actual, immediate cash requirements of the State in carrying out a program
      or project” [31 CFR 205]. Since the available cash at December 31, 2001 represents
      approximately 15 days of cash needs, rather than the “immediate cash requirements,” we
      do not believe that the Commonwealth is in compliance with this criteria.

10.   Determine how the Commonwealth reports obligations for Local Board activities
      (i.e. Adult, Dislocated Workers, Youth and Local Administration) and if the method
      used for reporting to the DOL is in compliance with instructions issued by the ETA.

      The obligation amounts reported by Pennsylvania for all Local Board activities
      represented the total amount of funds passed through to the Local Boards.

      ETA’s OGCM informed us that Local Board FSRs should include obligations incurred by
      the Local Boards, rather than the Commonwealth’s obligations for amounts passed
      through to the Local Boards. However, Commonwealth officials believed obligations
      were reported in accordance with ETA instructions.

      We looked to the written reporting instructions issued by ETA. The written instructions
      do not specify that the Local Board obligations should be reported on the FSRs. As an
      example, the Youth reporting instructions define obligations as the sum of net outlays
      (i.e., expenditures) plus unliquidated obligations, which are defined as follows:

                                              9
             Item 10. i. FEDERAL UNLIQUIDATED OBLIGATIONS are obligations
             incurred, but for which an outlay (expenditure) has not yet been recorded
             in the grantee’s books of account. This amount should include
             unliquidated obligations to subgrantees and contractors. (State has 90
             days after all funds have been expended or the period of availability has
             expired to liquidate funds that were obligated during the period of
             performance.) [Training and Employment Guidance Letter No. 16-99,
             June 23, 2000, Attachment D.]

11.   Determine if expenditure information is reported to ETA on the accrual basis of
      accounting, in accordance with the regulations at 29 CFR 97 and the WIA reporting
      instructions issued by ETA.

      The Commonwealth records and reports cost information on the accrual basis of
      accounting in accordance with regulations at 29 CFR 97, 20 CFR 667.300 and the WIA
      reporting instructions issued by ETA. In addition, the Commonwealth has issued
      guidance to all of the Local Boards in the TAG, Chapter 3, which states in part:

             While a separate accounting system need not be established, each entity
             must maintain financial records that adequately identify the source and
             application of all funds. In addition, a cash-based accounting system must
             be capable of developing the accrued expenditure information needed to
             complete the required financial reports. Sufficient documentation must be
             maintained to support the accrual information reported to the Department
             of Labor and Industry.

12.   Determine what information is required to be reported by the Local Boards to the
      Commonwealth, and if the reporting requirements established by the
      Commonwealth ensure compliance with the program regulations at 20 CFR
      667.300.

      The Commonwealth uses the Financial Management System (FMS) for recording all
      Local Board WIA financial transactions, including obligations, expenditures and
      payments. This is an automated data collection and reporting system that provides the
      information used to analyze and monitor compliance with Federal and Commonwealth
      fiscal mandates. The statewide Intranet-based design establishes the mechanism for a
      uniform reporting and cash management system that is designed to allow authorized users
      to: (1) request and approve requests for funds, (2) report accrued expenses, (3) document
      and identify financial information by contract, (4) monitor obligations and expenditures
      by funding stream and (5) obtain standardized or query reports. The system is initialized
      with Notice Of Obligation (NOO) information and then is used for recording the Local
      Boards WIA payments and expenditures. The Commonwealth issued a TAG to the Local
      Boards that provides reporting instructions fo r all WIA financial information entered
      directly into the Commonwealth’s FMS. The TAG provides operational guidance and
      sets policy for program accountability. We found that the FMS reporting requirements
      were substantially compliant with the program regulations at 20 CFR 667.300.


                                             10
13.   Determine how the Commonwealth tracks the various funding periods for both
      Commonwealth activities and Local Board activities, and if data is accounted for in
      a manner that will allow costs to be matched against the appropriate obligation.

      The Commonwealth has a system in place to track the various funding periods for both
      State and Local Board activities in a manner that allows costs to be matched against the
      corresponding obligations. Each subaward recorded in the FMS is assigned its own
      Funding Stream Code. The Funding Stream Code identifies the source of funding (i.e.,
      the specific WIA grant) and the program component (whether it is Adult, Youth,
      Dislocated Worker, etc.). Each grant is also assigned a Program Year Code and Sub
      Program Code, which identify the term and increment of the grant respectively. These
      codes are used to track obligations, expenditures and payments by the Local Boards to
      ensure that subaward activity is matched against the corresponding WIA grant.

14.   Determine the documentation used by the Commonwealth to award the pass
      through allocations to the Local Boards. Based on the information obtained,
      determine if the Commonwealth subaward document is in compliance with the
      requirements of the uniform gra nt administration procedures outlined at 29 CFR
      97.37.

      The Commonwealth enters into formal Business Plan/Agreement with the Local Boards.
      When agreements are signed by authorized personnel for both parties, an agreement
      number is assigned and a NOO is issued and entered into the FMS. We found this
      documentation to be substantially compliant with the requirements of the uniform grant
      administration procedures outlined at 29 CFR 97.37. For example, this regulation
      requires that “every subgrant include cla uses required by Federal statute and executive
      orders and their implementing regulations,” and that every cost reimbursement subgrant
      include a provision for compliance with 29 CFR 97.42, which sets forth the retention and
      access requirements for financial and programmatic records relative to the Federal grant
      or subgrant.

15.   Inquire as to the source of obligation, cost and/or payment information reported to
      the Commonwealth by the Local Board, and determine if the information reported
      materially agrees with the corresponding source accounting records.

      The financial information for WIA is reported to the Commonwealth in summary form
      through the Commonwealth’s FMS. From this financial information, reports can be
      developed which support the FSRs. The data recorded in FMS include the following
      information by individual Local Board:

         ü   Name and identification number of the Local Boards
         ü   Identification of the program and program year
         ü   Amount of the NOO’s issued by the Commonwealth to the Local Boards
         ü   Amount obligated by the Local Boards
         ü   Unobligated balances
         ü   Expenditures (coded by administration and program categories)
         ü   Unexpended balances
         ü   Payments
                                              11
      On a test basis, we traced information reported in the FMS to the supporting accounting
      records with no material differences noted.

16.   Determine if Local Board cost information is reported on the accrual basis of
      accounting, in accordance with the regulations at 29 CFR 97 and the WIA reporting
      instructions issued by ETA.

      Expenditures are reported by the Local Boards using the accrual basis of accounting, in
      accordance with the regulations at 29 CFR 97 and the reporting instructions issued by
      ETA.

      The Commonwealth issued guidance to all of the Local Boards in the TAG, Chapter 3,
      which states in part:

             While a separate accounting system need not be established, each entity
             must maintain financial records that adequately identify the source and
             application of all funds. In addition, a cash-based accounting system must
             be capable of developing the accrued expenditure information needed to
             complete the required financial reports. Sufficient documentation must be
             maintained to support the accrual information reported to the Department
             of Labor and Industry.

17.   If obligation information is not required to be reported to the Commonwealth,
      determine if the Local Board has accounted for their obligations in the official
      accounting system or in “cuff” records.

      As mentioned previously in this report, Local Board obligations are required to be
      reported to the Commonwealth in the FMS. We found that the two Local Boards visited
      also tracked obligations in their own accounting records.

18.   Determine how the Local Board defines “obligation,” and the point at which funds
      are considered to be obligated. Determine if the Local Board definition meets the
      criteria defined in the program regulations at 20 CFR 660.300.

      The two Local Boards visited defined obligation as: (1) legally binding contracts, (2)
      Letters of Intent signed by both parties, (3) accounts payable (unliquidated obligations),
      (4) paid expenditures, and (5) open purchase orders. We found that this definition was
      compliant with the WIA regulations. However, neither of the Local Boards reported
      open purchase orders as obligations because they considered them to be immaterial in
      dollar value and infrequent in number.

      The majority of the funds are obligated by the Local Boards through various types of
      third party contracts. When a contract is executed between the Local Board and an
      independent contractor, it is recorded as an obligation of the Local Board and reported in
      the FMS.


                                               12
19.   Inspect copies of the types of contracts issued for training services. Determine
      whether or not the subcontracts for training services issued by the Local Board
      contained the required information and clauses as specified in the grant
      administration requirements at 29 CFR 97.

      We obtained four training subcontracts issued by one of the Local Boards visited, and
      three subcontracts issued by the other Local Board. We found the training subcontracts
      to be substantially compliant with the uniform grant administration requirements of 29
      CFR, Part 97.

      Both of the Local Boards visited issued formal contractual agreements to subcontractors,
      which referred to the requirements and regulations applicable to WIA operations, and set
      forth the essential contract terms and conditions.

20.   Determine what information is required to be reported by the training
      subcontractors to the Local Boards, including the content, format, frequency and
      any written instructions issued by the Local Board. Based on the information
      obtained, determine whether or not the Local reporting requirements are in
      substantial compliance with the program regulations at 20 CFR 667.300.

      The information that is required to be submitted by subcontractors to both of the Local
      Boards was defined within the contracts and was considered to be substantially compliant
      with 20 CFR 667.300. Examples of information reported include: expenditures by
      category, names of participants served, type of service provided, etc.

21.   Determine how the Local Board tracks the various funding periods, and if data is
      reported and accounted for in a manner which will allow costs to be matched
      against the appropriate obligation or subcontract agreement.

      As previously discussed, the Commonwealth’s FMS system requires that data reported by
      the Local Boards be identified through specific codes designed to match expenditure and
      payment information against the corresponding obligation per funding period.




                                             13
                                                                                EXHIBIT I

                        FINANCIAL STATUS REPORT
                     LOCAL YOUTH PROGRAM ACTIVITIES




Following this title page is the WIA financial status report used to record local youth
program activities
                                                                               EXHIBIT II

                         FINANCIAL STATUS REPORT
                      LOCAL ADULT PROGRAM ACTIVITIES




Following this title page is the WIA financial status report used to record local adult
program activities.
                                                                              EXHIBIT III

                     FINANCIAL STATUS REPORT
           LOCAL DISLOCATED WORKER PROGRAM ACTIVITIES




Following this title page is the WIA financial status report used to record local dislocated
worker program activities.
                                                                             EXHIBIT IV

                        THE COMPLETE TEXT OF
                 PENNSYLVANIA’S RESPONSE TO THE DRAFT
                   AGREED-UPON PROCEDURES REPORT




Following this title page is the complete text of Pennsylvania’s response to our agreed-
upon procedures report, issued to them on August 30, 2002.
